         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Can Improve the Use of
       Financial Monitoring Reviews for
       Recovery Act Superfund Contracts
       Report No. 11-R-0081

       January 31, 2011
Report Contributors:                           Janet Kasper
                                               Michael Petscavage
                                               Doug LaTessa
                                               Denise Darasaw
                                               Nancy Dao




Abbreviations

EPA          U.S. Environmental Protection Agency
FAR          Federal Acquisition Regulation
FMR          Financial monitoring review
FY           Fiscal year
GAO          U.S. Government Accountability Office
OAM          Office of Acquisition Management
OIG          Office of Inspector General
OMB          Office of Management and Budget
QAP          Quality assurance plan
                         U.S. Environmental Protection Agency
                                                                                                              11-R-0081
                         Office of Inspector General                                                    January 31, 2011



                         At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Audit                EPA Can Improve the Use of
                                     Financial Monitoring Reviews for
We conducted this audit to
determine whether the U.S.           Recovery Act Superfund Contracts
Environmental Protection
Agency (EPA) is implementing          What We Found
its American Recovery and
                                     EPA is implementing the monitoring functions established in the contracts
Reinvestment Act of 2009
                                     functional area of the EPA Recovery Act stewardship plan. The stewardship
Stewardship Plan for Superfund
                                     plan is largely based on the U.S. Government Accountability Office’s Internal
contracts as it relates to cost
                                     Control Standards, the Office of Management and Budget’s Recovery Act
controls, and is using the results
                                     Implementation Guidance, and controls contained in EPA’s Contracts
of financial monitoring reviews
                                     Management Manual. These monitoring functions are standard internal controls
(FMRs) as a project management
                                     EPA uses to manage contracts. EPA’s implementation of these functions should
tool for Recovery Act Superfund
                                     help ensure that a high degree of accountability is associated with the
contracts.
                                     investment of Recovery Act funds.
Background
                                     While EPA is implementing the stewardship plan in conducting FMRs,
                                     program staff are not always aware of the results of the FMRs and, therefore,
The Recovery Act provided
                                     cannot use the FMRs as a project management tool for Superfund projects
$600 million in supplemental
                                     funded by the Recovery Act. The Office of Acquisition Management’s FMR
funding for Superfund remedial
                                     report distribution guidance requires that the FMRs be distributed to contracting
cleanups. As of August 2010,
                                     officers but not program staff. As a result, program staff do not always have the
EPA’s Superfund program
                                     information they need to effectively manage their projects and perform invoice
expended $246 million of the
                                     reviews. Program staff are at risk of approving ineligible invoiced costs because
Recovery Act funds. EPA’s
                                     they do not have the knowledge of FMR cost-related issues that impact contract
stewardship plan specified
                                     costs being billed.
monitoring functions related to
cost controls for contracts. The     Recommendation and Corrective Action Taken
Office of Acquisition
Management’s FMR program             We recommended in the draft report that the Assistant Administrator for
selectively reviews high-risk        Administration and Resources Management revise policies and procedures to
active contracts valued over         ensure that FMR reports are distributed timely to all project officers, work
$5 million.                          assignments managers, and task order managers assigned to the contract
                                     impacted by the FMR, as well as those working on other active contracts with
                                     the same contractor. In response to the draft report, EPA agreed with our
For further information,             recommendation and said it will update its internal Financial Analysis and
contact our Office of                Oversight Standard Operating Procedures to require that FMR reports be
Congressional, Public Affairs and    distributed to cognizant contracting officers and project officers. The
Management at (202) 566-2391.
                                     contracting officers and project officers will be advised to further disseminate
The full report is at:               the report(s) to all parties associated with the contract, including delivery order
www.epa.gov/oig/reports/2011/        project officers, task order project officers, and work assignment managers. The
20110131-11-R-0081.pdf               Agency implemented the corrective action on October 22, 2010.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                          January 31, 2011

MEMORANDUM

SUBJECT:	              EPA Can Improve the Use of Financial Monitoring Reviews for
                       Recovery Act Superfund Contracts
                       Report No. 11-R-0081


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:	                   Craig E. Hooks
                       Assistant Administrator for Administration and Resources Management


This is the Office of Inspector General’s (OIG’s) report on the U.S. Environmental Protection
Agency’s (EPA’s) implementation of the Recovery Act Stewardship Plan for Superfund
remedial contracts. This report contains findings that describe problems the OIG has identified
and corrective actions the OIG recommends. This report represents the position of the OIG and
does not necessarily represent the final EPA position. Final determinations on matters in the
report will be made by EPA managers in accordance with established audit resolution
procedures.

The estimated cost of this report, calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, is $333,971.

Action Required

In responding to the discussion draft report, the Agency provided a corrective action plan for
addressing the recommendation. Therefore, a response to the final report is not required. We
have no objections to the further release of this report to the public. The report will be available
at http://www.ega.gov/oig.

If you or your staff have any questions, please contact Melissa Heist, Assistant Inspector General
for Audit, at 202-566-0899 or heist.melissa@epa.gov; or Janet Kasper, Product Line Director, at
312-886-3059 or kasper.janet@epa.gov.
EPA Can Improve the Use of Financial Monitoring Reviews                                                                     11-R-0081
for Recovery Act Superfund Contracts



                                  Table of Contents 


Chapters 

   1    Introduction ........................................................................................................      1             


                Purpose .......................................................................................................    1                 

                Background .................................................................................................       1                 

                Scope and Methodology..............................................................................                2                 


   2    Successful Implementation of Monitoring Functions.....................................                                     4             


                Recovery Act Encourages Strong Internal Controls ....................................                              4

                Monitoring Functions Being Implemented ...................................................                         4

                Some Monitoring Functions Are Standard Internal Controls .......................                                   5         


   3    EPA Can Improve the Use of Financial Monitoring Reviews .........................                                          7             


                Program Staff Play Key Role in Invoice Review Process............................                                  7

                Program Office Staff Not Always Using FMRs as a 

                     Project Management Tool ...................................................................                   8

                EPA Management Considers Contracting Officers

                    Primary Customers of FMRs ...............................................................                     10 

                Conclusion...................................................................................................     10                 

                Recommendation ........................................................................................           10                 

                Corrective Action Taken ..............................................................................            10 


   Status of Recommendations and Potential Monetary Benefits..............................                                        11     




Appendices 

   A    Agency Response to Discussion Draft Report................................................                                12


   B    Distribution .........................................................................................................    14 

                                  Chapter 1

                                   Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA) Office of Inspector General
            (OIG) conducted this audit to determine whether EPA is implementing its
            Recovery Act Stewardship Plan for Superfund contracts as it relates to cost
            controls. We also conducted the audit to determine whether EPA is using the
            results of financial monitoring reviews (FMRs) as a project management tool for
            Recovery Act-funded Superfund contracts.

Background
            The purpose of the Recovery Act is to create and save jobs, jump-start the
            economy, and build the foundation for long-term economic growth. The Recovery
            Act provided $600 million in supplemental funding for Superfund remedial
            cleanups. As of August 2010, EPA’s Superfund program had expended $246
            million of the Recovery Act funds.

            EPA established a Recovery Act Steering Committee to monitor Recovery Act
            planning and implementation. The steering committee established an internal
            controls workgroup that created the Recovery Act Stewardship Plan to monitor
            and mitigate risk in implementing the Recovery Act. The committee’s internal
            controls workgroup is composed of seven functional area subcommittees made up
            of program office, administrative, and regional representatives. Using the Office
            of Management and Budget (OMB) Recovery Act Implementation Guidance, the
            contracts subcommittee identified control objectives, with corresponding risk
            assessments, control activities, and monitoring functions designed to ensure that
            the objectives are achieved.

            The contracts functional area of the February 16, 2010, stewardship plan
            identified several monitoring functions. We reviewed six of these related to cost
            controls for EPA Superfund contracts: invoice reviews, FMRs, meetings with
            regional contracting office supervisors and Office of Acquisition Management
            (OAM) division directors, meetings between contracting officer representatives
            and contractors, review of monthly progress reports, and use of appropriate
            Recovery Act clauses in contracts.

            The FMR program is an integral part of OAM’s overall contract management
            review process. The primary objective is to assure that contractor invoices are
            adequately supported by their cost accounting system and supporting documents
            in order to be considered a financially sound basis for payment, in accordance


11-R-0081                                                                                   1
            with the terms and conditions of the contract. OAM selectively reviews active
            contracts valued at over $5 million.

            The reviews are performed on-site at contractor locations. FMRs are performed
            by a professional staff of auditors who assist the Contracting Officers/Financial
            Administrative Contracting Officers/Project Officers. The FMR group provides
            its report directly to the contracting officer, who is responsible for resolving the
            recommendations, usually within 90 days. According to OAM, FMR reports have
            raised numerous issues that have been resolved or are in the process of being
            resolved. Overpayments have been recovered, dollars have been saved, contracts
            have been corrected, audits have been initiated, supporting documents have been
            prepared, and procedures have been improved.

Scope and Methodology
            We performed this audit from October 2009 to September 2010 in accordance
            with generally accepted government auditing standards, issued by the Comptroller
            General of the United States. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.

            To determine whether EPA is implementing its Recovery Act Stewardship Plan
            related to cost controls, we reviewed EPA’s Recovery Act Stewardship Plan and
            Contracts Management Manual, OMB’s Recovery Act Implementation Guidance,
            the Recovery Act, and the U.S. Government Accountability Office’s (GAO’s)
            Internal Control Standards. We surveyed nine regions and four OAM contracting
            offices concerning their implementation of the stewardship plan related to the six
            cost control monitoring functions. We interviewed the Contracts Lead for the
            stewardship plan, and Office of Solid Waste and Emergency Response staff
            concerning project management principles and techniques used to avoid
            unnecessary cost overruns and delays. We visited Region 5 and reviewed
            contracts and work assignments, and interviewed the Superfund branch chief and
            section chief. We also interviewed regional contracting officers and project
            officers in Regions 5 and 7.

            To determine whether EPA is using the results of FMRs as a project management
            tool for Recovery Act-funded Superfund contracts, we reviewed the FMR
            distribution policy. We also compared the July 1, 2010, Recovery Act obligations
            and disbursements for the Superfund Program to the FMRs completed for fiscal
            years (FYs) 2009 and 2010 through July 7, 2010, to determine which Recovery
            Act Superfund contracts had a completed FMR. We identified five contracts with
            Recovery Act disbursements that also had an FMR completed in 2009 and 2010.
            From each of these contracts, we sampled one high-dollar project. We
            interviewed regional contracting officers, project officers, work assignment


11-R-0081                                                                                    2
            managers, and task order managers from Regions 1, 4, 5, 8, and 9 to determine
            whether and how they use the results of FMRs. We also reviewed the OAM
            intranet document titled Lessons Learned from the FMR Program dated June
            2004, and interviewed the FMR team leader to obtain an understanding of the
            FMR program.

            Internal Control Structure

            In planning and performing our audit, we reviewed management controls related
            to our objectives. We reviewed documents EPA completed in compliance with the
            Federal Managers’ Financial Integrity Act, including FY 2009 assurance letters
            from the Office of Administration and Resources Management and Office of
            Solid Waste and Emergency Response. EPA did not identify internal control
            weaknesses related to the audit’s objectives. There were no previous audits of
            EPA’s implementation of the contracts stewardship plan.




11-R-0081                                                                                   3
                                  Chapter 2

  Successful Implementation of Monitoring Functions 

            EPA is implementing the monitoring functions established in the contracts
            functional area of the EPA Recovery Act Stewardship Plan. EPA developed a
            plan based mostly on existing controls contained in its Contracts Management
            Manual. These functions are standard internal controls designed to achieve
            efficiency and effectiveness of operations. EPA’s implementation of the selected
            monitoring functions identified in the contracts functional area of the stewardship
            plan should help ensure that a high degree of accountability is associated with the
            investment of Recovery Act funds.

Recovery Act Encourages Strong Internal Controls
            The contracts functional area of EPA’s Recovery Act Stewardship Plan is based
            largely on GAO’s Internal Control Standards, OMB’s Recovery Act
            Implementation Guidance, and controls contained in EPA’s Contracts
            Management Manual. EPA’s stewardship plan incorporates the five GAO internal
            control standards: control environment, risk assessment, control activities,
            information and communication, and monitoring. OMB’s Recovery Act
            Implementation Guidance required appropriate oversight of contracts and
            encouraged that special attention be given to maintaining strong internal controls
            over Recovery Act program funds. For contracts, EPA developed a plan based
            mostly on existing controls contained in its Contracts Management Manual. The
            plan allows for the monitoring of new and existing controls, and provides for
            contingency controls should monitoring indicate that further oversight is
            necessary.

Monitoring Functions Being Implemented
            EPA is implementing the monitoring functions established in the contracts
            functional area of the EPA Recovery Act Stewardship Plan. We selected six
            monitoring functions related to cost controls to review during the audit. In
            December 2009, we surveyed nine regions and four contracting offices, and
            visited Region 5 to review the implementation of the six monitoring functions.
            Based on our work, we found that EPA is implementing the selected monitoring
            functions (table 1).




11-R-0081                                                                                    4
            Table 1: Results of survey
             Monitoring function                       Status of implementation
             1. Meetings between contracting officer   All 13 offices stated that meetings occurred.
             representatives and contractors

             2. Review of progress reports             Ten of 13 offices reported that the Chief Acquisition
                                                       Officer reviewed the monthly progress reports (two
                                                       offices reported that the progress reports were
                                                       submitted, but their answers were unclear as to whether
                                                       the Chief Acquisition Officer reviewed the monthly
                                                       progress report and one office had not yet received any
                                                       reports).
             3. Financial Monitoring Reviews           EPA planned 21 FMRs in FY 2010 (4 of which are
                                                       Superfund contracts receiving Recovery Act funding).
             4. Meetings with regional contracting     The Recovery Act Contracts Subcommittee met regularly
             officer supervisors                       with all OAM regional contracting officers and OAM
                                                       division directors.
             5. Invoice reviews                        Two of 13 contracting offices increased the number of
                                                       invoice reviews. Some of the other offices reported that
                                                       additional controls have been implemented in addition to
                                                       the normal invoice review process. For example, one
                                                       regional office reported that it hired a Financial Specialist
                                                       to review all Recovery Act invoices.
             6. Quality action plan compliance         This monitoring function generated confusion for
             reviews—to ensure that clauses are        contracting offices.
             checked for Recovery Act-funded
             contracts
            Source: OIG analysis of survey results.

              The sixth monitoring function, in Table 1 above, ensuring that EPA’s quality
              assurance plans (QAPs) were modified to check for the inclusion of Recovery Act
              contract clauses, generated confusion for EPA’s contracting offices. Some
              contracting offices interpreted this monitoring function to mean that contracting
              offices would be required to modify their QAP to include a step to ensure that
              appropriate Recovery Act clauses were included in those contracts that received
              Recovery Act funding. Other contracting offices interpreted this step to mean that
              OAM would include a step in its QAP oversight reviews to ensure that
              contracting offices included the clauses in required contracts. Agency staff
              informed us that this monitoring function would be dropped from the stewardship
              plan. EPA contracting offices would still be required to ensure that Recovery Act
              clauses were included in all contracts where necessary, although EPA did not
              provide details on how each office would ensure that the clauses were included in
              the contracts. During our site visit to Region 5, we verified that the Recovery Act-
              related clauses were added to impacted contracts. Region 5 used a checklist to
              ensure that that all required clauses were added to the contracts.

Some Monitoring Functions Are Standard Internal Controls
              Most of the controls in the stewardship plan are standard controls EPA uses to
              administer contracts. As shown in table 2, two controls were added in the
              stewardship plan. EPA’s implementation of the selected monitoring functions


11-R-0081                                                                                                        5
              identified in the contracts functional area of the stewardship plan should help
              ensure that a high degree of accountability is associated with the investment of
              Recovery Act funds.

            Table 2: Monitoring functions
             Monitoring function                             New or existing control
             1. Meetings between contracting officer         Existing—required by EPA's Contracts
             representatives and contractors                 Management Manual
             2. Review of progress reports                   Existing—required by EPA’s Contracts
                                                             Management Manual
             3. Financial monitoring reviews                 Existing—required by EPA’s Contracts
                                                             Management Manual
             4. Meetings with regional contracting officer   New requirement
             supervisors
             5. Invoice reviews                              Existing—required by EPA’s Contracts
                                                             Management Manual
             6. QAP compliance reviews—to ensure that        New requirement
             clauses are checked for ARRA-funded contracts
            Source: OIG analysis.




11-R-0081                                                                                           6
                                  Chapter 3

                   EPA Can Improve the Use of 

                   Financial Monitoring Reviews 

            Program staff are not always aware of the results of the FMRs and, therefore,
            cannot use the FMRs as a project management tool for Superfund projects funded
            by the Recovery Act. Program staff were generally unaware of the FMR cost-
            related internal control issues that would impact their project oversight and
            invoice review. In accordance with EPA policy, project officers, work assignment
            managers, and/or task order managers have either primary or secondary
            responsibility for many of the control features involved with reviewing and
            approving invoices. EPA FMR report distribution guidance requires that FMR
            reports be distributed to all contracting officers working on the contract impacted
            by the FMR, as well as those working on other active contracts with the same
            contractor. The FMR team views the contracting officers as their primary
            customers and does not distribute FMR reports directly to program staff. As a
            result, program staff do not always have the information they need to better
            manage their projects and perform invoice reviews. Program staff are at risk of
            approving ineligible invoiced costs because they do not have the knowledge of
            FMR cost-related issues that impact contract costs being billed.

Program Staff Play Key Role in Invoice Review Process
            While the contracting officer has ultimate responsibility for invoice processing
            under individual contracts, under the Federal Acquisition Regulation (FAR), he or
            she may delegate authority to make decisions (FAR 1.102-4) and the
            accountability for the decisions made. Section 11.2 of EPA’s Contracts
            Management Manual establishes the responsibilities, procedures, and instructions
            for processing contract invoices. Based on the policy, the project officer, work
            assignment manager, and/or task order manager have either primary or secondary
            responsibility for many of the control features involved with reviewing an
            invoice. Table 3 provides some examples of these responsibilities.




11-R-0081                                                                                   7
    Table 3: Examples from contract invoice process responsibility matrix
                                                                                                    Work
                                                                  Project      Contracting       assignment
     Control feature                                              officer        officer          manager
     Monthly invoice reviews:
           Ensure billed costs do not exceed cost ceilings          P             S or P
            established in the contract.
           Ensure funds are available in the correct amounts        P               S
            and distribute payments from the appropriate
            account.
           Verify math calculations (see note)                      S               S

           Determine whether to disallow invoiced costs.            P               P

           Determine whether to suspend invoiced costs.             P               S               P

           Ensure quantities invoiced against delivery              S                               P
            schedule and confirm receipt.
           Verify correct usage of rates.                           P             S or P
     Source: EPA Contracts Management Manual.

     Note: 	P= Primary responsible; S= Secondary responsible. 

            EPA’s finance center has primary responsibility for verifying math calculations. 




                  OAM’s FMR policy requires FMR reports to be distributed to all contracting
                  officers working on the contract impacted by the FMR, as well as to all
                  contracting officers managing active contracts with the same contractor. The
                  intent of this policy is to keep contracting officers abreast of the contractor’s
                  practices and procedures, and to alert contracting officers of systematic problems
                  that may impact their contracts.

Program Office Staff Not Always Using FMRs as a Project
Management Tool

                  For the five work assignments/task orders reviewed, 7 of the 10 program staff
                  (project officers, work assignment managers, and task order managers) did not
                  receive the FMR report, so they were not aware of the FMR findings, as shown in
                  table 4. Therefore, they could not consider the results as part of their project
                  management and invoice review.




11-R-0081                                                                                                     8
                Table 4: FMR report distribution
                                                         Work assignment manager or
                 Contract           Project officer          task order manager
                 Contract 1                   N                         N

                 Contract 2                   Y                         N

                 Contract 3                   N                         N

                 Contract 4                   Y                         N

                 Contract 5                   Y                         N
                Source: OIG analysis.

                Note: Y= Received FMR report; N= Did not receive FMR report

               All five work assignment managers/task order managers and one project officer
               interviewed indicated that had they been aware of the FMR findings, those
               findings would have impacted their project oversight and invoice review process.
               It is our conclusion that in all five cases, the FMR identified cost-related internal
               control issues that could impact program staff’s project oversight and monthly
               invoice review and approval. For example, inadequate timekeeping policies and
               procedures would cause the program staff to review the billed labor hours and
               rates more closely and place less reliance on the contractor’s system. Table 5
               summarizes the FMR findings reported.


     Table 5: FMR findings impacting project oversight and invoice review/approval
      FMR completed
      for contractor                    FMR findings impacting project oversight/invoice review
                              1. Property purchased for contract use without written approval
      Contractor 1
                              2. Inadequate paper timesheets policies/procedures
                              1. Missing subcontract agreement for team subcontractor
      Contractor 2
                              2. Contractor was using parent company as a subcontractor
                              1. Double-billing other direct costs
      Contractor 3            2. Missing incurred cost submission for prior years
                              3. Inadequate timekeeping policies/procedures
                              1. Contract stipulated percentage of payments not withheld from contract
                              2. Omission of payment for overtime premium clause required by FAR
                              3. Inadequate timekeeping policies/procedures
      Contractor 4
                              4. Inadequate travel policies/procedures
                              5. Vouchers not prepared in accordance with contract clause
      Contractor 5            1. Excess funds requiring de-obligation
      Source: OIG analysis of FMR findings.




11-R-0081                                                                                                9
EPA Management Considers Contracting Officers Primary Customers
of FMRs

            The FMR team leader stated that the primary customer of the FMR group is the
            contracting officer. He does not consider the program staff to be primary
            customers of the FMR reports. Contracting officers are relied upon to further
            distribute the reports to others who may be interested in the results. OAM
            management’s view is reflected in the FMR distribution policy, which does not
            require distribution of the FMR reports to the project officer, work assignment
            manager, or task order manager. However, EPA has delegated much of the
            invoice review process to these individuals. Those responsible for reviewing the
            invoices should receive the FMR reports so that they are aware of issues that
            could impact their invoice review.

Conclusion
            Because the FMRs are not required to be distributed to the program staff, the
            project officers, work assignment managers, and task order managers do not
            always have the information needed to better manage their projects and to
            perform adequate invoice reviews. Without knowledge of inadequate timekeeping
            procedures, double billings, or other factors that impact labor and other costs
            being billed, the program staff are at risk of approving ineligible costs.

Recommendation
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

                   3-1 	   Revise policies and procedures to ensure that FMR reports are
                           distributed timely to all project officers, work assignments
                           managers, and task order managers assigned to the contract
                           impacted by the FMR as well as those working on other active
                           contracts with the same contractor.

Corrective Action Taken
            In response to the draft report, EPA agreed with our recommendation and said it
            will update its internal Financial Analysis and Oversight Standard Operating
            Procedures to require that FMR reports be distributed to cognizant contracting
            officers and project officers. The contracting officers and project officers will be
            advised to further disseminate the report(s) to all parties associated with the
            contract, including delivery order project officers, task order project officers, and
            work assignment managers. The Agency implemented the corrective action on
            October 22, 2010.




11-R-0081                                                                                      10
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                   POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                       Planned
    Rec.    Page                                                                                                      Completion   Claimed    Agreed To
    No.      No.                           Subject                            Status1        Action Official             Date      Amount      Amount

    3-1       10    Revise policies and procedures to ensure that FMR           C       Assistant Administrator for    10/22/10
                    reports are distributed timely to all project officers,                Administration and
                    work assignment managers, and task order                             Resources Management
                    managers assigned to the contract impacted by the
                    FMR as well as those working on other active
                    contracts with the same contractor.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-R-0081                                                                                                                                            11
                                                                                  Appendix A

        Agency Response to Discussion Draft Report

                                        October 27, 2010

MEMORANDUM

SUBJECT:       Request to Issue a Final Report in Lieu of a Draft - Response to Discussion Draft
               Report Entitled, “EPA Can Improve the Use of Financial Monitoring Reviews”,
               (FMR) Project No. OA-FY10-0039, Issued September 8, 2010

FROM:          Craig E. Hooks /s/ Howard F. Corcoran for
               Assistant Administrator


TO:            Melissa Heist
               Assistant Inspector General for Audit
               Office of the Inspector General (OIG)

       In responding to the discussion draft report, the Office of Administration and Resources
Management (OARM) provided the following response which included a corrective action plan
for addressing the recommendation. Because we both agree with the recommendation and
response, a draft report is not required. We request that the final report be issued instead. We
look forward to receiving the final report.

       OARM agrees that ensuring effective communication between Contracting Officers
(COs) and Contracting Officer Technical Representatives (COTRs), including sharing of
information and understanding of roles and responsibilities, is an organizational area of focus
and priority. Accordingly, several of the Office of Acquisition Management’s initiatives for FY
2011 involve bringing greater discipline and management to the Agency’s COTR program.
Regarding Recommendation 3-1, OARM submits the following:

Recommendation 3-1: Revise policies and procedures to ensure that FMR reports are
distributed timely to all project officers, work assignments managers, and task order managers
assigned to the contract impacted by the FMR and other active contracts with the same
contractor

Response: OARM will modify its internal Financial Analysis and Oversight Standard Operating
Procedures to require that FMR reports be distributed to cognizant COs and Project Officers
(POs). As stated in the invoice processing guidance in Contracts Management Manual (CMM),
Chapter 11.2, the PO is responsible for coordinating invoice review/approval among subordinate
program personnel. Accordingly, FMR distribution will be via e-mail, and will advise COs and
POs to further disseminate the report(s) to all parties associated with the contract, including



11-R-0081                                                                                        12
Delivery Order Project Officers , Task Order Project Officers , and Work Assignment Managers.
The procedures will be updated no later than October 31, 2010.

       If you have any questions, please contact John Bashista at 202-564-4310.




11-R-0081                                                                                 13
                                                                              Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Office of Regional Operations
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Office of Acquisition Management, Office of Administration
       and Resources Management




11-R-0081                                                                                14
